W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-5582

Marlon Darrel Evans

Amy Miller, Warden

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Kimara A. Aarons

Date:

9/9/21

Digitally signed by Kimara A. Aarons
Date: 2021.09.09 13:13:40 -07'00'

(Type or print) Name Kimara A. Aarons
Mr.

Ms.

Mrs.

Firm

California Department of Justice

Address

300 S. Spring Street, Suite 1702

City & State

Los Angeles, CA

Phone

(213) 269-6092

Miss

Zip 90013
Email

kim.aarons@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Michael Parente
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012

